I.   Introduction
     Purpose and Objectives
     In the period January through May 1985, a national program
     inspection on Medicare coverage of chiropractic services
     was conducted by the Region V (Chicago) Office of Analysis
     and Inspections, Office of the Inspector General,
     Department of Health and Human Services.
     This study was done in response to growing concerns
     regarding: the rapidly rising cost of chiropractic care
     under Medicare Part B; the possible implications of
     previously conducted OIG targeted investigations of
     chiropractors; an emerging perception that current Medicare
     legislation and regulations may not be administered in such
     a way as to provide intended limits on coverage; and a
     perception by chiropractors and others that the benefit
     does not adequately cover or reflect current patterns of
     practice.
     The inspection had four general objectives:
     o   To develop an understanding of chiropractic as a
         profession as seen by its practitioners, schools and
         associations, as well as representatives of mainstream
         medicine.
     o    To explore with the chiropractic community how current
          Medicare legislation and regulations affect them and
          their patients, and in particular to discuss with them
          how they evaluate the x-ray requirement and handle
          billing.
     o    To gather and analyze data on patterns of chiropractic
          utilization and expenditures under Medicare, Part B.
     o    To examine how Medicare Part B carriers process
          chiropractic claims and to determine the effects of
          their screens and reviews.
     Methods
     In order to achieve these objectives, the inspection had
     three major segments:
